                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A13120095                                                                     Page 1 of 1




                NSF OIG received an allegation of plagiarism in a proposal 1 Pis from two institutions2
         submitted collaboratively. We reviewed the proposal and did not identify substantive copied text.
         Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
